<html>
<title> - OPERATING UNMANNED AIRCRAFT SYSTEMS IN THE NATIONAL AIRSPACE SYSTEM: ASSESSING RESEARCH AND DEVELOPMENT EFFORTS TO ENSURE SAFETY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  OPERATING UNMANNED AIRCRAFT SYSTEMS 
                   IN THE NATIONAL AIRSPACE SYSTEM:  
                   ASSESSING RESEARCH AND DEVELOPMENT 
                        EFFORTS TO ENSURE SAFETY 

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       FRIDAY, FEBRUARY 15, 2013

                               __________

                            Serial No. 113-5

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

       Available via the World Wide Web: http://science.house.gov

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

78-819 PDF                       WASHINGTON : 2013 



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
ANDY HARRIS, Maryland                SCOTT PETERS, California
RANDY HULTGREN, Illinois             DEREK KILMER, Washington
LARRY BUCSHON, Indiana               AMI BERA, California
STEVE STOCKMAN, Texas                ELIZABETH ESTY, Connecticut
BILL POSEY, Florida                  MARC VEASEY, Texas
CYNTHIA LUMMIS, Wyoming              JULIA BROWNLEY, California
DAVID SCHWEIKERT, Arizona            MARK TAKANO, California
THOMAS MASSIE, Kentucky              VACANCY
KEVIN CRAMER, North Dakota
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
                                 ------                                

                       Subcommittee on Oversight

                   HON. PAUL C. BROUN, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DAN MAFFEI, New York
    Wisconsin                        ERIC SWALWELL, California
BILL POSEY, Florida                  SCOTT PETERS, California
DAVID SCHWEIKERT, Arizona            EDDIE BERNICE JOHNSON, Texas
KEVIN CRAMER, North Dakota
LAMAR S. SMITH, Texas



                            C O N T E N T S

                       Friday, February 15, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Paul C. Broun, Chairman, Subcommittee 
  on Oversight, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     8
    Written Statement............................................     9

Statement by Representative Dan Maffei, Ranking Minority Member, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    13

                               Witnesses:

Dr. Karlin Toner, Director, Joint Planning and Development 
  Office, Federal Aviation Administration (FAA)
    Oral Statement...............................................    15
    Written Statement............................................    17

Dr. Edgar Waggoner, Director, Integrated Systems Research Program 
  Office, National Aeronautics and Space Administration (NASA)
    Oral Statement...............................................    23
    Written Statement............................................    25

Dr. Gerald Dillingham, Director, Civil Aviation Issues, 
  Government Accountability Office (GAO)
    Oral Statement...............................................    37
    Written Statement............................................    39

Discussion.......................................................    61

             Appendix I: Answers to Post-Hearing Questions

Dr. Karlin Toner, Director, Joint Planning and Development 
  Office, Federal Aviation Administration (FAA)..................    70

Dr. Edgar Waggoner, Director, Integrated Systems Research Program 
  Office, National Aeronautics and Space Administration (NASA)...    75

Dr. Gerald Dillingham, Director, Civil Aviation Issues, 
  Government Accountability Office (GAO).........................    80

            Appendix II: Additional Material for the Record

Requested material for the record submitted Dr. Edgar Waggoner...    88


                  OPERATING UNMANNED AIRCRAFT SYSTEMS
                    IN THE NATIONAL AIRSPACE SYSTEM:
                   ASSESSING RESEARCH AND DEVELOPMENT
                        EFFORTS TO ENSURE SAFETY

                              ----------                              


                       FRIDAY, FEBRUARY 15, 2013

                  House of Representatives,
                                  Subcommittee on Oversight
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Paul Broun 
[Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Broun. The Subcommittee on Oversight will come to 
order.
    In front of you are packets containing the written 
testimony, biographies, and Truth in Testimony disclosures of 
today's witness panel. I will recognize myself for five minutes 
for an opening statement.
    Good morning, and welcome. This hearing, titled ``Operating 
Unmanned Aircraft Systems in the National Airspace System: 
Assessing Research and Development Efforts to Ensure Safety,'' 
is the first hearing for the 113th Congress's Subcommittee on 
Oversight. During our break, our name changed but our general 
and special investigatory authority to review and study, on a 
continuing basis, all laws, programs and Government activities 
dealing with or involving non-military research and development 
remains the same.
    I would like to extend a warm welcome to our witnesses 
today. We really appreciate you guys being here. I also want to 
welcome our returning Members and our new Members, including 
the Subcommittee's Ranking Member, the distinguished gentleman 
from New York, Mr. Maffei. I look forward to working with you 
all, and Mr. Maffei, I look forward to working with you as my 
Ranking Member on this Committee.
    Today's hearing focuses on integrating unmanned aircraft 
systems, or UAS, into the national airspace. As a pilot, I am 
extremely interested in this issue. Specifically, we hope to 
gain a better understanding of the safety risks, current 
technological obstacles and key research and development 
efforts being undertaken to overcome those obstacles. UAS has 
garnered a great deal of attention lately. In fact, if you 
watched the news this morning, there was a lot of news about 
this issue. In January, PBS's NOVA aired a documentary 
entitled, ``Rise of the Drones.'' Last week's Time magazine 
cover carried the same title, and of course the 
Administration's use of drones for targeting terrorists to 
confront our war on terrorism has come to be a central issue in 
the confirmation hearing of the proposed CIA Director, the 
nominee John Brennan. However, privacy issues and military 
applications of UAS are beyond the scope of this hearing.
    I use the term ``unmanned aircraft systems'' or UAS, 
instead of UAV or drone, because it is a more complete and 
accurate term. As the name suggests, UAS are complex systems 
made up of not only aircraft but as well as supporting ground, 
air and communications infrastructure. UAS comes in a variety 
of shapes and sizes and can carry out a wide range of missions.
    Aviation has come a long way in a relatively short time 
thanks to American innovation and ingenuity. The list of 
American pioneers of aviation and aerospace is very long. You 
may not know the details of their achievements, but I am sure 
you will recognize names such as Clyde Cessna, James McDonnell 
and Donald Douglas, Howard Hughes, William Boeing, Charles 
Lindberg, Kelly Johnson, just to name a few. Unmanned aircraft 
are the next step in the evolution of modern aviation which all 
began with two American brothers at Kitty Hawk in 1903. Just as 
UAS has sparked a revolution in military affairs, they will 
also very likely transform civilian and commercial sectors.
    The Teal Group, an aerospace and defense industry market 
intelligence firm, predicts America will spend over $49 billion 
on UAS just over the next decade. In 2010, the Association for 
Unmanned Vehicle Systems International estimated that over the 
next 15 years, more than 23,000 UAS jobs, totaling $1.6 billion 
in wages, could very well be created. This does not include the 
tens of thousands of secondary jobs in sensor manufacturing, 
software development and other complementary industries.
    That said, the addition of thousands or tens of thousands 
of additional aircraft into the national airspace certainly 
poses safety concerns for all us. There is no guarantee that 
accidents will not occur, but we need to take every precaution 
to reduce the risks involved in the UAS integration.
    Last year, Congress directed that federal agencies, 
including the FAA and NASA, collaborate in accelerating the 
integration of UAS into the national airspace. The FAA 
Modernization and Reform Act of 2012 contains provisions 
designed to promote and facilitate the use of civilian unmanned 
aircraft. We on this Subcommittee know you have been working 
hard and have made progress toward meeting the prescribed 
objectives, but we also know there are many unresolved issues, 
both technologically and regulatorily.
    Again, our goal here today is to better understand the 
research that is underway to overcome these technological 
issues and mitigate the risks involved with UAS integration 
into the national airspace system. We are particularly 
interested in hearing about any advances toward eliminating 
vulnerabilities in command and control communications, new 
sense and avoid capabilities, and agreements on technological 
standards.
    The Washington Post recently reported that at least nine 
American UAS crashes occurred near civilian airports overseas 
as a result of pilot error, mechanical failure, software bugs, 
or poor coordination with air traffic controllers. In August of 
2010, the New York Times reported that a Navy UAS violated 
airspace over Washington, D.C., when the operators lost contact 
due to a software issue. While this may be more acceptable in 
remote areas overseas, we need to do much better here in our 
own skies. The threat of command and control link jamming, GPS 
navigation signal spoofing, and system hacking is a real 
concern that has to be addressed before any UAS integration 
into the national airspace. Overcoming these challenges will 
require significant research and development investments by 
both the public and private sector. Given our Nation's current 
financial state, this demands more efficient coordination 
between all stakeholders.
    [The prepared statement of Mr. Broun follows:]

              Prepared Statement of Chairman Paul C. Broun

    Good morning and welcome. This hearing, titled ``Operating Unmanned 
Aircraft Systems in the National Airspace System: Assessing Research 
and Development Efforts to Ensure Safety,'' is the first for the 113th 
Congress's Subcommittee on Oversight. During the break, our name 
changed but our general and special investigatory authority to review 
and study, on a continuing basis, all laws, programs, and Government 
activities dealing with or involving non-military research and 
development remains the same.
    I would like to extend a warm welcome to our witnesses. I also want 
to welcome our returning members and our new Members, including the 
Subcommittee's Ranking Member, the distinguished gentleman from New 
York Mr. Maffei. I look forward to working with you all.
    Today's hearing focuses on integrating unmanned aircraft systems, 
or UAS, into the national airspace. Specifically, we hope to gain a 
better understanding of the safety risks, current technological 
obstacles and key research and development efforts being undertaken to 
overcome those obstacles. UAS have garnered a great deal of attention 
lately. In January, PBS's NOVA aired a documentary titled ``Rise of the 
Drones,'' last week's TIME Magazine cover carried the same title, and 
of course the Administration's use of drones for targeting terrorists 
was central to the confirmation hearing of CIA Director nominee John 
Brennan. However, privacy issues and military applications of UAS are 
beyond the scope of this hearing.
    I use the term unmanned aircraft systems or UAS, instead of UAV or 
drone, because it is a more complete and accurate term. As the name 
suggests, UAS are complex systems made up of the aircraft as well as 
supporting ground, air, and communications infrastructure. UAS come in 
a variety of shapes and sizes and can carry out a wide range of 
missions.
    Aviation has come a long way in a relatively short time thanks to 
American innovation and ingenuity. The list of American pioneers of 
aviation and aerospace is long. You may not know the details of their 
achievements, but I am sure you'll recognize their names: Clyde Cessna, 
James McDonnell and Donald Douglas, Howard Hughes, William Boeing, 
Charles Lindberg, Kelly Johnson, just to name a few. Unmanned aircraft 
are the next step in the evolution of modern aviation which all began 
with two American brothers in 1903. Just as UAS have sparked a 
revolution in military affairs, they will likely also transform 
civilian and commercial sectors.
    The Teal Group, an aerospace and defense industry market 
intelligence firm, predicts America will spend over $49 billion on UAS 
in the next decade. In 2010 the Association for Unmanned Vehicle 
Systems International estimated that over the next 15 years more than 
23,000 UAS jobs, totaling $1.6 billion in wages, could be created. This 
does not include the tens of thousands of secondary jobs in sensor 
manufacturing, software development and other complementary industries.
    That said, the addition of thousands or tens of thousands of 
additional aircraft into the national airspace poses safety concerns. 
There is no guarantee that accidents will not occur, but we need to 
take every precaution to reduce the risks involved with UAS 
integration.
    Last year, Congress directed that federal agencies, including the 
FAA and NASA, collaborate in accelerating the integration of UAS into 
the national airspace. The FAA Modernization and Reform Act of 2012 
contains provisions designed to promote and facilitate the use of 
civilian unmanned aircraft. We on this Subcommittee know you have been 
working hard and have made progress toward meeting the prescribed 
objectives, but we also know there are many unresolved issues, both 
technological and regulatory.
    Again, our goal here today is to better understand the research 
underway to overcome these technological issues and mitigate the risks 
involved with UAS integration into the national airspace system. We are 
particularly interested in hearing about any advances toward 
eliminating vulnerabilities in command and control communications, new 
``sense and avoid'' capabilities and agreements on technological 
standards.
    The Washington Post recently reported that at least nine American 
UAS crashes occurred near civilian airports overseas as a result of 
pilot error, mechanical failure, software bugs, or poor coordination 
with air traffic controllers. In August of 2010, the New York Times 
reported that a Navy UAS violated airspace over Washington, DC when 
operators lost contact due to a ``software issue.'' While this may be 
more acceptable in remote areas overseas, we need to do much better 
here in our own skies. The threat of command and control link jamming, 
GPS navigation signal spoofing, and system hacking is a real concern 
that will have to be addressed before any UAS integration into the NAS. 
Overcoming these challenges will require significant R&D investments by 
both the public and private sector. Given our nation's current 
financial state, this demands more efficient coordination between all 
stakeholders.

    Chairman Broun. I now recognize the Ranking Member, the 
gentleman from New York, Mr. Maffei, for an opening statement. 
You are recognized, sir, for five minutes.
    Mr. Maffei. Thank you very much, Mr. Chairman. I am excited 
about the opportunity to work with you on this important 
Subcommittee. I particularly want to compliment you for your 
leadership in calling this hearing today. It hopefully won't 
surprise you that on this issue I will be echoing a lot of your 
same comments, and I thought your opening statement very 
articulate.
    Addressing the research and development efforts regarding 
the integration of unmanned aircraft systems, or UAS, into the 
national airspace is serious issue and presents daunting 
technical challenges, possible economic opportunities, as the 
chairman mentioned, but also potential threats to our civil 
liberties and safety.
    I know firsthand what a complicated issue it is and the 
challenges it presents. An unmanned aerial vehicle unit 
operates out of my district at Hancock Field Air National Guard 
base on the military side. Now, while these are commonly 
referred to as drones, the future of unmanned vehicles goes far 
beyond what that word implies. There is a real human element to 
unmanned flight of this kind just as there is an increasing 
robotic element to manned flight. There are tremendous 
potential technical risks and public concerns associated with 
integrating UAS into the national airspace, and my constituents 
express those concerns on a daily basis. These aircraft 
represent an emerging technology with broad possible uses among 
many industries and government agencies. They could potentially 
provide benefits to many industries from our farmers to 
firefighters, search and rescue, researchers, meteorologists 
and scientists.
    However, regardless of their specific use, we need to 
ensure that unmanned aerial systems operate in our national 
airspace safely and securely. But first they must overcome the 
technical challenges that exist, and indeed, there are many. A 
2012 GAO report detailed several critical areas which must be 
addressed before UASs can fly safely in our skies. Chief among 
them is the stark reality that the technology to provide 
unmanned aircraft the ability to ``sense and avoid'' other 
aircraft and airborne objects does not currently exist, and 
this is a serious concern. Other technical challenges range 
from lost-link scenarios where communication between the pilot 
and UAS is severed as a result of environmental or technical 
causes or even by human actors whether they are inadvertent or 
intentional. Acquiring dedicated radio frequency spectrum in 
order to secure the continuous communication for UAS 
operations, particularly as the spectrum needs of the onboard 
sensors expand, is another challenge, and I look forward to our 
witnesses addressing some of these challenges in depth today.
    There is a real and critical human element of unmanned 
flight of any kind. Highly skilled pilots who once sat in the 
cockpits now sit in ground stations detached from the sensation 
of flight and the G forces while remaining integrally connected 
to the outcome of the mission. We need to ensure that these 
human elements from proper training and medical certifications 
are appropriately incorporated into UAS integration as well.
    A year ago, the FAA Modernization and Reform Act of 2012 
was signed into law. It required the FAA to establish an 
integration plan permitting unmanned aerial systems to operate 
in the United States by September of 2015. I look forward to 
hearing from the FAA today on their progress in the last year 
as well as a realistic report on what challenges remain and 
where the FA stands in meeting these deadlines.
    Now, 20 years ago, cell phone technology was in its 
infancy, and within ten years these devices have transformed 
from simple mobile phones to the pocket accessories used to 
help small businesses and owners expand. While security and 
safety concerns about the use and growth of these devices--they 
almost all have cameras on them now--have existed since the 
beginning, their proliferation and technical advancements have 
not slowed. Today, there are more than 315 million cell phones 
in the United States alone and most of these devices not only 
carry those cameras but also GPS, or global positioning 
satellite capabilities as well. And while these technical 
advancements have not been hindered or restricted, there are 
reasonable and legitimate limits on the use of cell phones in 
hospitals, secure facilities, on airplanes and while driving 
your car. So this should be an analogy to us.
    Despite all the recognized challenges with UAS, whether we 
like it or not, for better or for worse, this technology is 
here and it is not going away. Both the public sector and 
commercial sector remains interested in this technology and 
that interest continues to evolve and expand. As a result, we 
must develop the necessary framework to handle UAS emergence 
safely and securely. We must also ensure the protection of 
individual rights and personal privacy in the air and on the 
ground. Like any new technology, it is impossible to predict 
the ultimate path UASs will take.
    In tackling the tremendous task of ensuring the safe and 
secure operation and integration of UAS into the domestic 
airspace, we are once again presented with the challenge of 
balancing all these important issues. There are private sector 
issues which might help grow the economy. The government's 
interest is to provide domestic security, and we as 
representatives are charged with safeguarding the public's 
interest and protecting their civil liberties. Developing an 
effective regulatory framework could be an arduous process but 
this hearing is one step towards ensuring that this is 
happening in a timely and effective manner. It is our 
responsibility, and we don't take it lightly, to recognize the 
need for oversight, to ensure the proper steps are being taken, 
proper procedures are being created and federal agencies are 
meeting the critical timelines to address the rapid emergence 
of these UAS systems in our national airspace, and that is why 
I again want to compliment the chairman. Thank you for your 
leadership in calling this hearing today. I want to thank the 
witnesses, and I look forward to your testimony.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Maffei follows:]

        Prepared Statement of Ranking Minority Member Dan Maffei

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Broun. Mr. Maffei, thank you so much and I look 
forward to working with you as we go forward through this 
Congress, and just from your statements, I can tell that you 
are I are going to be close colleagues protecting civil 
liberties and privacy issues, because those issues are 
extremely important to me and have been for a long time, well, 
since I have been here and before I came here.
    At this time I would like to introduce our witnesses. Our 
first witness is Dr. Karlin Toner, who is the Director of the 
Joint Planning and Development Office at the Federal Aviation 
Administration. Our next witness is Dr. Edgar Waggoner, 
Director of the Integrated Systems Research Program Office at 
NASA. And the final witness today is Dr. Gerald Dillingham, 
Director of Civil Aviation Issues at the Government 
Accountability Office, or GAO.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which the Members of this Committee 
will have five minutes each to ask questions.
    I now recognize Dr. Toner to present her testimony. Dr. 
Toner.

                 STATEMENT OF DR. KARLIN TONER,

        DIRECTOR, JOINT PLANNING AND DEVELOPMENT OFFICE,

             FEDERAL AVIATION ADMINISTRATION (FAA)

    Dr. Toner. Thank you, Mr. Chairman. Good morning, Chairman 
Broun, Congressman Maffei and Members of the Subcommittee. I 
appreciate the opportunity to appear before you today to 
discuss the Federal Aviation Administration's current research 
in support of unmanned aircraft systems integration into our 
national airspace system.
    I am the Director of the Joint Planning and Development 
Office and will touch upon the role my office plays in 
facilitating and coordinating UAS research efforts throughout 
the government with partners including the Departments of 
Commerce, Defense, and Homeland Security, NASA, and the FAA.
    I would also like to take this opportunity to speak to you 
about the solicitation the FAA announced yesterday that 
requested state and local governments, eligible universities, 
and other public entities to develop six UAS research and test 
sites around the country. This solicitation was done in 
accordance with the FAA Modernization and Reform Act of 2012, 
which directed the FAA to establish the test sites in order to 
conduct the critical research that will help determine how best 
to safely integrate these systems into our NAS. Once the sites 
are selected, which will be later this year, we expect to learn 
how UAS operate in different environments and how they impact 
air traffic operations. The test sites will also inform the 
agency as we develop standards for certifying unmanned aircraft 
and determine the necessary air traffic requirements.
    In addition to the test sites, the FAA is publishing a 
notice in the Federal Register asking the public to review 
draft privacy language and provide input. The broad outline of 
FAA's privacy proposal will require each test site to ensure 
their privacy policies address the following: notice or 
awareness, choice and content, access and participation, 
integrity and security, and finally, enforcement mechanisms to 
deal with violations of these policies. The FAA thinks the test 
sites will provide important information that will inform our 
UAS integration process moving forward.
    With respect to FAA's research and development efforts, we 
are working in four areas: sense and avoid, control and 
communication, maintenance and repair, and human factors. 
Research in all four areas is critical, as the opening 
statements have mentioned. My written statement contains more 
details on each area, but I would like to take a moment to 
highlight the work we are doing with NASA in the area of 
control and communication.
    The FAA is collaborating with NASA on prototype 
architecture that will be used to develop a high-level security 
risk assessment. Our joint work will define the network 
architecture and candidate security mechanisms for protecting 
the air-ground communications that can eventually be used to 
develop security standards and requirements. Likewise, all of 
our partner agencies have mission-related incentives for UAS 
integration to succeed. The JPDO enables leveraging the 
research being done by different agencies to ensure that all 
agencies are aware of and can benefit from the work being done 
throughout the Administration. This synergy, such as the FAA-
NASA partnership I described, ensures that all research dollars 
are being used as effectively as possible to reach our common 
goal of safe UAS integration.
    I certainly understand the desire to safely integrate UAS 
into the NAS. Because FAA's mission is to ensure the safety and 
efficiency of the NAS, integration can only occur to the extent 
the FAA is satisfied that the safety of the NAS will not be 
degraded by the introduction of these new aircraft. This is an 
extremely complex endeavor, but the FAA has been challenged 
with complex problems in the past, and the aviation safety 
record is a testament to the fact that we have been able to 
meet those challenges.
    Mr. Chairman, this concludes my statement, and I will be 
happy to answer your questions.
    [The prepared statement of Dr. Toner follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Broun. Thank you, Dr. Toner. I appreciate your 
staying within five minutes. That was perfect. Thank you so 
much. That is excellent.
    Now I recognize Dr. Waggoner for five minutes.

           STATEMENT OF DR. EDGAR WAGGONER, DIRECTOR,

          INTEGRATED SYSTEMS RESEARCH PROGRAM OFFICE,

      NATIONAL AERONAUTICS AND SPACE ADMINISTRATION (NASA)

    Dr. Waggoner. Chairman Broun, Ranking Member Maffei and 
Members of the Subcommittee, I want to thank you for this 
opportunity to testify on NASA's research and development 
activities to ensure safety in the operation of unmanned 
aircraft systems, or UASs, in our national airspace.
    There is a growing demand to routinely fly unmanned 
aircraft in the NAS, our national airspace system, and I am 
sure that you are aware that unmanned aircraft are increasingly 
being used for applications where it is not feasible or 
practical to rely on extended human-piloted flights. We often 
refer to these as dull, dangerous or dirty missions.
    The application of unmanned aircraft to perform these 
missions is just part of what is driving the critical need for 
safe, less restrictive access to the NAS. Safe, routine access 
represents enhanced capabilities for the public sector but also 
the promise of new capabilities for commercial or civil 
aviation sectors as well. NASA is performing research in the 
Aeronautics Research Mission Directorate that provides an 
opportunity to develop and transition our concepts, 
technologies, algorithms and knowledge to the FAA and other 
stakeholders to help them define the algorithms, regulations 
standards for safe, routine NAS access.
    In my testimony this morning, I want to make three key 
points. I will define the research that NASA is doing to help 
solve this problem, how we are working to transition our 
research results to the stakeholder community, and looking 
towards the future of what NASA considers some of the areas 
where additional research is required.
    So one might ask, why aren't UAS routinely allowed in the 
NAS now? For unmanned aircraft, access to the NAS is hampered 
by various regulatory and operational challenges, making it 
difficult to establish common applicable standards and 
requirements. Now, the FAA has established a process for 
enabling public agencies to request a certificate or 
authorization (COA) or waiver in order to operate unmanned 
aircraft in the NAS. As a matter of fact, this is how NASA 
received permission to perform our science missions in flying 
the NAS. However, for civil, non-public UAS operations in the 
NAS, the FAA requires a special airworthiness certificate in 
the experimental category. Experimental certificates are 
limited to an individual vehicle rather than a class of 
vehicles and severely limit the uses of the UAS, for example, 
commercial operations are specifically excluded under an 
experimental certificate.
    The majority of the research work that NASA is performing 
is organized under the UAS integration in the NAS project and 
it is focused in the following areas: sense and avoid 
separation assurance interoperability, developing reliable 
communication systems and protocols, design of ground control 
stations and their displays for effective and safe operation, 
and the requirements necessary to define criteria for avionics 
communication systems and ground control station certification. 
In each of these areas, we are addressing critical research 
questions and delivering research results to our stakeholders.
    Now, the work that NASA is performing is dependent on 
external government agency and stakeholder interfaces as well. 
I would like to identify three key interfaces where we are 
significantly involved: the UAS Executive Committee (UAS 
ExCom), the Joint Planning and Development Office (JPDO), and 
the UAS Aviation Rulemaking Committee (UASR). In each of these 
cases, NASA is playing a significant role in supporting the 
activities from the executive level down to our working level 
subject matter experts. In addition to this, we have built 
effective partnerships with the FAA, the Department of Defense 
and RTCA's Special Committee 203 that is focused on unmanned 
aircraft systems.
    Finally, I would like to identify some future research 
areas where NASA is undertaking studies to evaluate the 
implications of safe integration of UAS into the Next 
Generation Air Transportation System (NextGen). So 
understanding the tradeoffs between remote control and 
computerized automation of unmanned aircraft, referred to as 
levels of autonomy, is a relatively immature research area that 
we think could generate some additional focus.
    In addition, the second area I would like to point out is 
that of airborne-based sense and avoid. Issues associated with 
sense and avoid are particularly relevant when the aircraft 
involved are not under positive air traffic control. So we know 
about the work that the DOD has performed. We would like to 
assess that relative to civil applications.
    So in conclusion, I would like to leave you with this 
thought. Granted, NASA doesn't build unmanned aircraft nor do 
we develop policy or the regulatory framework for their safe 
operation in NASA. However, through our research we conduct in 
cooperation with other government agencies, industry and 
academia, NASA is addressing barrier technology challenges for 
safe UAS integration in the NAS and ensuring that our research 
is effectively coordinated with and transitioned to the UAS 
stakeholder community.
    Chairman Broun, Ranking Member Maffei, other Members of the 
Subcommittee, this concludes my prepared statement, and I will 
be pleased to answer any questions at this time.
    [The prepared statement of Dr. Waggoner follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Broun. Thank you, Dr. Waggoner. I appreciate it 
very much. Excellent testimony from both you guys, and I am 
sure Dr. Dillingham is going to give us an equally excellent 
testimony.
    Sir, you are recognized for five minutes. Thank you, Dr. 
Dillingham.

              STATEMENT OF DR. GERALD DILLINGHAM,

                DIRECTOR, CIVIL AVIATION ISSUES,

             GOVERNMENT ACCOUNTABILITY OFFICE (GAO)

    Dr. Dillingham. We will do what we can, Mr. Chairman.
    Ranking Member Maffei, Members of the Subcommittee, as you 
requested, my testimony addresses three areas related to 
integrating UAS into the national airspace system.
    First, the roles, responsibilities and coordination among 
the key stakeholders; second, Faa'sprogress in complying with 
the UAS requirements in the 2012 FAA Reauthorization Act; and 
third, R&D efforts by FAA and others to address key integration 
challenges.
    With regard to the first area of stakeholder roles, 
responsibility and coordination, Congress has tasked the FAA to 
lead the effort of integrating UAS into the national airspace 
system, and successful integration requires the involvement of 
several other agencies including DOD, DHS and NASA as well as 
industry stakeholders. FAA has taken several important steps to 
facilitate collaboration among the stakeholders. For example, 
they have established several working groups, various 
memorandums of understanding and Cooperative Research and 
Development Agreements to address a range of integration 
issues. FAA has also recently created the UAS Integration 
Office with one executive to coordinate UAS efforts across the 
FAA. Although we did not evaluate the effectiveness of these 
efforts, our work on other federal and industry collaborations, 
such as the implementation of the Next Generation Air 
Transportation System, has shown that early and continuous 
involvement of stakeholders is critical to project success.
    With regard to the implementation status of the FAA 
reauthorization provisions, our written statement contains a 
chartof selected requirements and the status of FAA's efforts 
to meet them. Most of the requirements must be achieved between 
May 2012 and December 2015. Our work shows that while FAA has 
efforts underway to meet these requirements, they have 
completed only two of the nine requirements with completion 
deadlines that have passed as of this morning. Of the deadlines 
missed, FAA has not yet established a program for the six UAS 
test sites or released a comprehensive plan. Stakeholders 
including the Congress consider these actions among the key 
gateways to moving closer to safe and efficient UAS 
integration. While it could be argued that some of the 
provisions are complex undertaking that requires significant 
amount of effort by FAA and the partner agencies, meeting 
established deadlines can help increase stakeholder confidence 
in FAA's ability to lead the UAS integration effort and 
contribute to the continued participation and collaboration 
among all stakeholders.
    Regarding research and development efforts, FAA's UAS R&D 
roadmap identifies the various organizations that have efforts 
underway to mitigate obstacles that prevent UAS from being 
allowed to operate safely and routinely in the NAS. Some of 
these obstacles and related research include vulnerabilities to 
UAS operations such as sense and avoid, command and control 
including lost link, GPS jamming and spoofing, and human 
factors. While progress is being made to address these 
obstacles, the lack of necessary data has seriously hampered 
the development of safety, reliability and performance 
standards which are needed to validate the R&D efforts. In 
addition to the technical and R&D obstacles that I have cited, 
government and industry will need to work together to address 
issues related to the public acceptance of UAS in the NAS, 
especially as it relates to privacy and homeland security 
concerns.
    Mr. Chairman, Ranking Member Maffei and Members of the 
Subcommittee, the potential impact of this industrial sector on 
the Nation's aerospace industry and overall global 
competitiveness could be significant. As the Chairman noted, in 
addition to their life protection and lifesaving potential, 
according to an industry forecast, over the next decade, the 
worldwide market for government and commercial use of UAS could 
potentially grow to be worth $89 billion, and the United States 
could account for nearly two-thirds of the $28 billion 
projected R&D investment for UAS technologies. With this kind 
of growth, it will be critical for FAA to continue to make 
progress in integrating UAS into the national airspace system, 
and oversight hearings such as this one highlight the 
importance of issues that need to be addressed.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Dillingham follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Broun. Thank you, Dr. Dillingham. You did an 
excellent job also, and all three witnesses, I appreciate you 
all being here and the excellent testimony and hopefully Dr. 
Dillingham's questions that they brought up at GAO are going to 
be answered not only through this hearing but also through 
written questions that we will ask you all as we go along.
    Reminding Members that Committee rules limit questioning to 
five minutes each, the chair at this point will open the first 
round of questions and the chair will recognize himself for 
five minutes.
    On December 4, 2011, the United States lost an RQ-170 
Sentinel near Iran. Iranians claim to have spoofed the global 
position system, GPS, signal that was in operation with that 
Sentinel. Last summer, Professor Humphreys from the University 
of Texas at Austin demonstrated that it is possible to spoof 
the GPS signals to take control of an unmanned aircraft. GAO's 
testimony states that military GPS signals, unlike the non-
military GPS signals, unlike the military GPS signals, are not 
encrypted and transparency and predictability make them 
vulnerable to being counterfeited or spoofed. I ask, what R&D 
is being conducted to address this concern, and are there any 
R&D gaps that you are aware of? Dr. Toner, if you could start 
off answering those questions, and Dr. Waggoner, if you could 
fill in any gaps that Dr. Toner leaves out.
    Dr. Toner. Thank you, Mr. Chairman.
    You mentioned the very careful experimentation that was 
conducted by Dr. Humphreys and his students in Texas. We are 
aware of the experiments. Believe me, the security of the 
communication and control system is one of the key challenges 
we have looked at for UAS. I mentioned in my testimony projects 
that we are working on. What I want to point out about Dr. 
Humphreys' experiments is that I believe in his paper he even 
points out that they were very carefully conducted and would be 
hard to repeat. That said, we must be cognizant. The FAA has 
initiated a group that is looking at spoofing and jamming. 
There is also a position navigation and timing excom that looks 
across the government at GPS systems and would be concerned in 
that area. We are working on multiple levels to address it.
    Chairman Broun. Dr. Waggoner?
    Dr. Waggoner. Yes, sir. We are also aware of the work that 
Dr. Humphreys did at the University of Texas. Just to frame 
this problem, the issue with GPS is far bigger than just UAS. I 
mean, this would have economic implications. Our economy is run 
on GPS actually now. So we are aware of this. We are certainly 
in our work that we are working to make sure that there is 
adequate redundancies in any systems that we would test so 
positioning is not only reliant on the GPS signal and other 
situation awareness issues associated with that as well. Our 
focus is more on security at the command and control signal to 
the vehicle and making sure that within these frequencies that 
we are operating in, that those are secure and the data that we 
are transmitting is reliable and is valid data. So from that 
point of view, we have a very robust research effort going on 
in that.
    As far as spoofing of the GPS signal, we are aware of it. 
We are cognizant of what Dr. Humphreys did, and as part of our 
knowledge base and the constraints that we are operating under 
but we don't have any particular research efforts going towards 
spoofing of the GPS signal.
    Chairman Broun. Certainly, this is of great concerns to 
Americans not only because of the safety just generally but 
also because if Dr. Humphreys and his students can spoof the 
GPS system, what could other nation-states or terrorist groups 
do also.
    Will civil and commercial UAS operating in the national 
airspace use encrypted command, control and navigation links? 
Dr. Toner?
    Dr. Toner. The military today uses encrypted links, and I 
believe that solution may not be as viable for the commercial 
market. That is the reason so much research is being done 
today.
    Chairman Broun. Dr. Waggoner, do you have any additions?
    Dr. Waggoner. No, sir.
    Chairman Broun. My time is just about out, so please answer 
this question. In 2010, the Navy lost control of a Fire Scout 
UAS, which eventually violated the airspace here in Washington, 
DC. What work is being done to address the challenge of 
ensuring the safety in the event of a lost link? Anyone?
    Dr. Waggoner. So the work that we are doing, there would be 
certain lost-link protocols that would come into play so that's 
where autonomy would take over if there was a loss of the 
command control link to the UAS so that the UAS would either go 
to a predetermined position in order to reestablish the link or 
return to base.
    Chairman Broun. Weren't there protocols in place for this 
particular incident, though, and we still had a problem. Is 
that correct?
    Dr. Waggoner. That is correct in that case.
    Chairman Broun. Okay. Well, hopefully we can have that 
taken care of so that this doesn't occur anymore. I am sure it 
caused a lot of consternation here in D.C.
    With that, my time is up. Mr. Maffei, you are recognized 
for five minutes.
    Mr. Maffei. Mr. Chairman, thank you, and I found your 
questions and answers very enlightening. Clearly, there are 
some real national security and homeland security elements to 
this, and of course, on 9/11, it was not military airplanes 
that were taken over, it was the civilian airliners, and the 
same thing could be true; our biggest threat on these may not 
be a military craft being taken over in the Middle East but 
maybe a civilian one being taken over here. So we want to look 
at those things.
    Dr. Toner, you said in your testimony that the FAA will not 
integrate UAS unless and until we can be assured that the 
safety of the national airspace will not be degraded, and I 
assume you mean in all these respects, and Dr. Waggoner echoed 
that. But given the fact, Dr. Toner, that we have a very 
aggressive timeline set out for you and the FAA has already 
missed many of those deadlines, do you believe that you will be 
able to safely and effectively integrate the UAS into the 
national airspace by the current deadline of September 2015, 
and if you are not sure you can, are there things that you need 
from us in Congress to help make that happen or expedite it?
    Dr. Toner. Our approach is a phased in approach, and we are 
very cognizant that the FAA Act of 2012 called for safe 
integration by 2015. We view that as a beginning. If you look 
at aircraft such as the F-22 today, it is a manned aircraft but 
it is not fully integrated into the air traffic control system. 
We are taking a phased-in approach. In 2015, we will have 
integration beginning, but as we move towards the NextGen 
system, there will be new capabilities that make this an even 
more efficient integration for more varieties of aircraft. So, 
I think it is important that we consider a rolling approach as 
we focus on the safe integration and safe interaction of manned 
and unmanned aircraft.
    Mr. Maffei. Well, what do you need from us? Nothing?
    Dr. Toner. Congress has given us a lot of attention and 
support. We would ask for the opportunity to continue to 
explain the difficulties and challenges and our progress as we 
move forward.
    Mr. Maffei. Okay. Thank you very much.
    The chairman and I both have expressed concerns about 
privacy and civil liberties related to the equipment on board 
of these UAS aircraft, surveillance sensors, et cetera, and 
then I think there is--well, let me ask you this. Who is 
responsible for regulating these issues such as privacy 
concerns? Dr. Dillingham, do you have an idea of that? Everyone 
can answer if you have opinions.
    Dr. Dillingham. Mr. Maffei, we looked into this, and I 
think at best we can say, it is unknown at this point. When we 
did our work, we asked FAA about it, and FAA said our area is 
safety and that is what we are going to focus on, and of course 
there are already existing a number of different privacy 
regulations and laws but none of them have been tested with 
regard to UAS. I think the recent SIR that was put out by FAA 
to seek comments on privacy issues will be a start on that. 
From our perspective, that is one of the big obstacles to 
integration, that is, public acceptance, public education, and 
public concern about how that data will be used.
    Mr. Maffei. The other two witnesses are free to answer, but 
if you want to also address that public acceptance issue 
because it also seems there is no agency that is working on 
education of the public, et cetera.
    Dr. Dillingham. Not so much an agency but some of the 
industry associations, some of the model airplane associations 
are trying to educate the public or at least inform the public. 
One of the things that we keep in mind is, no matter what kind 
of technology is out there for good, there will be some who 
will find a way to misuse that technology, so it becomes very 
important that the public recognize those issues as well.
    Mr. Maffei. Anything to add from the other two witnesses? I 
have one more question, so quickly.
    Dr. Waggoner. Yes, sir, just real quickly, while I am not 
an attorney or certainly a legal expert on this, we go to a lot 
of forums where this subject is discussed, and sort of the 
consensus opinion that I have drawn from this is that yes, 
privacy is not the FAA's responsibility. They are focused on 
safety. There are legal precedents that are set relative to 
technology and surveillance if these exist, and the legislators 
and the community really need to identify what the ethical 
issues are and how these differ from a UAS to a manned aircraft 
relative to flight operations. Then this issue that Dr. 
Dillingham mentioned, the public and the media really need to 
be educated about UAS operations and missions.
    Mr. Maffei. Dr. Toner, do you have anything to add? You 
don't have to. Okay. Thank you very much, and Mr. Chairman, you 
and I may have to roll up our sleeves and do a little bit of 
bipartisan work to maybe set a legislative beginning to it, I 
don't know, but I would like to look into that with you.
    One quick question, and it can be answered in writing, but 
Dr. Toner, I really appreciate the fact that the FAA took the 
first formal step in selecting the six UAS test sites yesterday 
by releasing the screening information request document to the 
public. While I realize that this may not be your exact area, 
nonetheless, can I--I may have some additional questions on it 
once we sort of review it in terms of trying to get more 
precision on what you are really looking for. After you get a 
chance, can I get your commitment that we will receive timely 
written responses to that?
    Dr. Toner. We will provide a timely response, sir.
    Mr. Maffei. Thank you very much, Dr. Toner. Thank you, Mr. 
Chairman.
    Chairman Broun. Mr. Maffei, all the Members of the 
Committee will have the opportunity to give written questions 
to the witnesses and hopefully--in fact, I have already talked 
with them about that and they are all willing to give us those 
expeditious answers to all these questions because I know all 
of us have questions and all of us have concerns about this. 
The American public are just frightened, frankly, about the use 
of the UAS to possibly have invasions of their privacy and 
invasions of their civil rights, and I am extremely interested 
in making sure that we protect those privacy issues and civil 
rights issues. It is something that I have been focusing on for 
a long period of time not only in this issue but through 
cybersecurity and everything else. I am eager to work with you 
on this issue. Mr. Maffei?
    Mr. Maffei. Me too, and certainly, Mr. Chairman, I think 
you will agree, we have to at least figure out who the go-to 
person is in the Administration so that, you know, we have--it 
doesn't fall through the cracks.
    Chairman Broun. Absolutely. No matter who is in the White 
House and whatever the Administration is, this is an extremely 
important issue and it is a constitutional issue for me.
    Mr. Cramer, you are recognized for five minutes.
    Mr. Cramer. Thank you, Mr. Chairman, and thank you to all 
of the witnesses. You really have done an excellent job of both 
efficiently and thoroughly answering the questions in the 
charter, so I appreciate that very much. I especially 
appreciate the opportunity to meet you before the hearing, and 
Dr. Toner, to have somebody who has actually spent New Year's 
Eve in Hazen, North Dakota, as a witness on my first hearing is 
extraordinarily fortuitous for me because, as you know, in 
North Dakota we were quite pleased yesterday when the SIR was 
released. It has been a long wait. Nonetheless, we are grateful 
for the opportunity to be one of at least the 26 states that 
applied for the designation, and I would say, given that you 
spent New Year's Eve in Hazen, North Dakota, at one point, you 
understand how extreme our climate can be and I hope you take 
that into account if you are on the team that chooses where a 
good place would be to test extreme weather. But I also assure 
you that in the summertime, the other extreme is the same.
    I would be interested in just exploring a little further 
this juxtaposition of the privacy issue with the safety issue 
because as I understand it, while the SIR has a--is it a 60-day 
window for public comment on the privacy question? Am I correct 
in that, Dr. Toner? Do you know?
    Dr. Toner. Yes, that is correct.
    Mr. Cramer. But does that--thank you. And does that have 
anything to do then with the designation of the test sites? In 
other words, is it part of the SIR but not part of the criteria 
to be considered?
    Dr. Toner. We are looking to get public input on the 
privacy policy. We will be evaluating the test site proposals 
as called for in the SIR. We are looking to make sure that we 
are doing a good job, and that the authors are doing a good job 
in meeting the criteria in the SIR.
    Mr. Cramer. And so then getting back to some of your 
earlier criteria, I guess in your opening statement about the 
collaboration, the coordination and cooperation of various 
institutions, that would certainly, I think, fit into some of 
that.
    Dr. Toner. I cannot comment on the collaboration in terms 
of the proposals themselves. However, from my office's 
perspective, we need everybody rowing in the same direction on 
this issue since it is so complex.
    Mr. Cramer. Sure. Well, the point of the question is 
probably to make the statement given that you have answered all 
the questions, the technical questions, so well. Again, going 
back to the criteria, we are in North Dakota, again, speaking 
for my constituents who are very interested in this topic 
because we are a big aviation state. As you know, we have the 
School of Aerospace Sciences, Dr. Waggoner at the University of 
North Dakota and the aviation school that is very much a part 
of a team that the governor has put together called the 
Airspace Integration Team. This is a state effort to do 
exactly--unify all of the institutions under one collaborative 
effort to try to get this designation, and that we think is 
second probably to the extreme weather in terms of the 
criteria. I would have a question, though, about our proximity 
to Canada. Is that--would you consider that a concern or an 
asset, being a border state, and what kind of collaboration do 
we have, if any, with the Canadian government if the--as we 
test the airspace, national airspace, realizing we deal with a 
lot of international airspace.
    Dr. Toner. We have laid out in terms of the test sites what 
we believe are a wide range of criteria that we hope will 
attract a wide variety of offers including North Dakota. I 
could not comment today on the interaction with Canada and any 
international implications, and I could get back to you if you 
needed.
    Mr. Cramer. If you could, that would be great.
    And Mr. Chairman, again, they have done such a great job 
answering the questions that I had earlier that I think I will 
yield back.
    Chairman Broun. Thank you, Mr. Cramer.
    They have just called votes. We have some time. We will try 
to get through as many questions as we can. Mr. Peters, you are 
recognized for five minutes.
    Mr. Peters. Thank you, Mr. Chairman, and thank you for the 
opportunity to serve with you and Mr. Maffei on this Committee. 
I look forward to it.
    I had a pretty simple question about spectrum. You know, 
San Diego supports more than 7,100 jobs in the UAS industry, 
and we are interested in seeing these vehicles being able to be 
used for environmental monitoring and scientific research. We 
think they have got great application there. In addition, we 
are also the home to Qualcomm and interested in the wireless 
industry. That is our largest private employer. So my question 
is about the bulk of spectrum resources required from the use 
of these aircraft and whether any of you has reviewed what the 
potential spectrum need will be for the various unmanned aerial 
systems operating in the United States 5, 10, 15 years down the 
road.
    Dr. Toner. The FAA worked with the FCC to reserve some 
spectrum for the command and control of UAS. We could get you 
the specifics on our work. We believe, based on our assessment 
of the market for operation today, that spectrum should be 
adequate. However this is a point that we will continue to 
study to ensure adequacy down the road.
    Mr. Peters. I think that is fair, and I appreciate in 
addition to looking at the privacy concerns raised by the 
previous gentleman who spoke previously, I would appreciate an 
update on that as we go along.
    Mr. Chairman, I appreciate the opportunity and yield back.
    Chairman Broun. Thank you, Mr. Peters.
    Mr. Posey is next in line but he said he is not interested 
in asking questions. We appreciate you joining us. Oh, he has 
one question. Okay.
    Mr. Posey. Mr. Chairman, I just want to apologize for being 
late. We rolled votes from yesterday in the Financial Services 
Committee and I had to go do that first.
    Chairman Broun. Thank you for being here. So Mr. 
Schweikert, you are recognized for five minutes.
    Mr. Schweikert. Thank you, Mr. Chairman.
    This is one--when you are from Arizona and, you know, we 
actually have a number of manufacturers producing products and 
those things. I have a couple different questions. First one, 
particularly for the FAA, sort of the R&D roadmap and the 
deadlines and the mechanics that are supposed to be built in 
there, where are we time-wise? What should our expectations be 
of deliverabilities? What do we expect to see in the next year 
or two out of that?
    Dr. Toner. Thank you. That is a great question, and I will 
probably run out of time to explain the answer. I am assuming 
you are talking about the UAS research, development and 
demonstration roadmap that we published about a year ago. At 
that time we said that the challenges we had identified were a 
good start, they were a snapshot in time, and that we would 
need additional vetting and additional insurance that we would 
be meeting the needs of the regulatory folks with our research 
program. During the past year, we have worked tirelessly along 
with the government partners. We are, I think, very close to 
the coordination of a set of national goals and objectives of 
getting a single point of view, or concept of operations, that 
we can use as a measuring stick for our progress. We have set 
up a framework for how we can prioritize the R&D challenges. We 
know we have many of them. We want to make sure we cover them 
all. Quite frankly, we are looking forward to the point where 
we can share that with the full community.
    Mr. Schweikert. Mr. Chairman, as you go through those sort 
of challenges, are you going to be publishing updates saying 
look, here is what we are seeing, you know, here is our latest 
status? And I know that is always hard around here. One of the 
things we have great frustration with is the number of missed 
deadlines. I think you had one, what was it, September that you 
missed?
    Dr. Toner. Yes. In our roadmap report, we did push 
ourselves a little bit and promised some September data.
    Mr. Schweikert. Would we be seeing some incremental 
updates, some incremental publications telling us where you are 
at?
    Dr. Toner. We have not released incremental publications 
because it is very important to us, and the five agencies that 
we have been working with as partners, that we have coordinated 
with the agencies. We are in the last steps of coordination, 
and then we think we can release a very comprehensive package.
    Mr. Schweikert. All right. My friend from civil aviation?
    Dr. Dillingham. Is that me?
    Mr. Schweikert. Yes.
    Dr. Dillingham. I just wanted to add to Dr. Toner's 
comments that we did a report a couple of years ago and we made 
a recommendation that when the comprehensive plan is developed, 
that it also include the ability to show progress, to monitor 
progress towards goals, and we have not seen that comprehensive 
plan yet. It has been delayed as well. But if our 
recommendation is adhered to, the kinds of things that you are 
interested in and asking for should be included.
    Mr. Schweikert. Okay. Doctor, a slight lark but it sort of 
ties in. Being from Arizona, and I actually have this gentleman 
as a constituent who is a high-end engineer, has lot of 
resources, has built himself about a nine-foot-size flying wing 
with constant uplink, and I appreciate it when he flies over my 
house and sends me a text message with photos of my house and 
what I am doing in my backyard. What are we seeing also from 
the hobbyist world? Are they running ahead of us? Are they 
heading towards a dangerous conflict? What is going on there, 
and are we about to see also some clash of cultures of people 
going off on their own?
    Dr. Dillingham. This is a very sensitive and difficult area 
but let me try and respond. The 2012 FAA Reauthorization Act 
actually prohibited FAA from making regulations related to 
model aircraft, and persons who operate model aircraft. There 
are existing regulations that suggest that if you operate it in 
accordance with the principles that are now inforce, that that 
would be okay, and there is a way for FAA to intervene if you 
operate them dangerously. The Model Aircraft Association has 
issued some guidelines, though voluntary, that their 
membership, which I think is over 150,000, adhere to, but it is 
a different world in terms of modeling and, you know, how they 
are going to come together is to be determined.
    Mr. Schweikert. Well, I know I am beyond time but, Mr. 
Chairman, what you and I grew up thinking of as a model 
airplane, these things ain't model airplanes anymore. They are 
stunning in scale and complexity. So thank you, Mr. Chairman.
    Chairman Broun. Absolutely, and the American public are 
very fearful, concerned, and that is the reason that the news 
media has been focusing on this issue so long, and I appreciate 
you, Dr. Dillingham. I wasn't trying to ignore you and neither 
were any of these Members, but I trust that you guys are going 
to continue to monitor and report back to us on an ongoing 
basis what you find, and please keep us informed.
    Also, Dr. Waggoner, if you would, please provide for the 
record all of NASA's UAS R&D projects as well as the FY 2012 
and 2013 funding levels for each project. The FAA has been kind 
enough to provide those for us but we have not got those 
records from NASA, so if you would, please provide those--that 
information to us in an expeditious manner.
    I thank all the witnesses for you all's excellent testimony 
today. It is not only interesting but extremely valuable for 
us. Members of the Committee may have additional questions, as 
I have talked to you all in private. We ask for you to respond 
to those very expeditiously in writing to us. The record will 
remain open for two additional weeks for additional comments 
and for written questions from Members. I thank you all. I am 
disappointed that we have a vote on that is going to interrupt 
this extremely interesting topic for me and for the Members of 
the Committee, for Americans all over the country, and I thank 
C-SPAN for coming and helping to broadcast this to the American 
public so we can get that information out and you all's 
valuable testimony. Thank you so much for being here.
    The witnesses are excused and the hearing is now adjourned.
    [Whereupon, at 10:59 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by Dr. Karlin Toner

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record

     Requested material for the record submitted Dr. Edgar Waggoner

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
